    Office of Audits
    Office of Inspector General
    U.S. General Services Administration




IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN

Review of Multiple Award
Schedule Vendors’ Invoicing
Practices Relative to Prompt
Payment Discounts
Report Number A090026/Q/7/P10001
Dated March 15, 2010
Assignment Number A130063
August 20, 2013
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            August 20, 2013

 TO:              Thomas A. Sharpe, Jr.
                  Commissioner, Federal Acquisition Service (Q)

 FROM:            Grace D. McIver
                  Audit Manager, (JA-7)

 SUBJECT:         Implementation Review of Corrective Action Plan: Review of Multiple
                  Award Schedule Vendors’ Invoicing Practices Relative to Prompt
                  Payment Discounts
                  Report Number A090026/Q/7/P10001, dated March 15, 2010
                  Assignment Number A130063

We have completed an implementation review of the management actions taken in
response to the recommendations contained in the subject audit report (see
Appendix A). The objective of our review was to determine whether the Federal
Acquisition Service (FAS) has taken the corrective actions as outlined in the Action Plan
for the Review of Multiple Award Schedule Vendors’ Invoicing Practices Relative to
Prompt Payment Discounts. To accomplish our objective, we:

   •   Reviewed the subject audit report, recommendations, and the approved action
       plan;
   •   Reviewed documentation submitted by FAS to the Office of Administrative
       Services’ Government Accountability Office/Inspector General Audit Response
       Division to resolve action plan items; and
   •   Held discussions with FAS management and personnel.

Although FAS addressed the audit recommendations in its June 3, 2010, Action Plan, it
has not taken all corrective actions (see Appendix B). In its August 7, 2013, response
to the draft report, FAS provided new corrective actions (see Appendix C) for the
previously-approved action items 2.2 and 7.3, which it believes will make FAS fully
responsive to Report Number A090026/Q/7/P10001.

The Commissioner, Federal Acquisition Service (Q), is required to submit a revised
action plan to the Government Accountability Office/Inspector General Audit Response
Division (H1C) within 30 days showing the new corrective actions planned.




A130063                                    1
If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Grace McIver     Audit Manager         Grace.McIver@gsaig.gov        (817) 978-7318
William Buob     Auditor-in-Charge     William.Buob@gsaig.gov        (817) 978-7316

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.




A130063                                    2
Background

On March 15, 2010, we issued an audit report to FAS entitled Review of Multiple Award
Schedule Vendors’ Invoicing Practices Relative to Prompt Payment Discounts. GSA
negotiates prompt payment discount terms for many of its Multiple Award Schedule
(MAS) contracts. Historically, OIG examinations of GSA contractors noted that some
MAS contractors cited incorrect prompt payment discounts terms on their invoices. The
OIG conducts a limited number of contract examinations each year; therefore, the
extent of the problem and the potential financial impact (i.e., lost discounts) to the
Government is unknown.

The purpose of that review was to determine the extent to which the Government may
be at risk of losing prompt payment discount savings as a result of MAS contractors
citing incorrect payment terms on their invoices. In addition, the review evaluated
selected internal controls within GSA’s operations related to prompt payment discounts.

The review concluded:

   •   MAS contractors failed to cite correct payment terms on 75 percent (342 of 453)
       of selected invoices submitted for payment under GSA MAS task/purchase
       orders. Consequently, MAS customers are at risk of paying more than
       contractually obligated thus losing significant prompt payment discount savings.
   •   GSA internal controls related to order processing and contractor assessments
       need to be strengthened to help ensure prompt payment discounts are not lost.
       Of the 63 Orders for Supplies and Services (GSA Forms 300) we reviewed, 54
       contained erroneous payment terms such as “Net 30 Days.”
   •   GSA should consider taking a formal position regarding MAS customers’ rights to
       negotiate away contractual prompt payment discount terms in exchange for other
       discount considerations. OIG audits of MAS contractors found that some MAS
       customers negotiated away prompt payment discount terms when entering into
       Blanket Purchases Agreements. The current language incorporated into GSA
       MAS contracts does not specifically grant MAS customers the authority to
       change or negotiate away prompt payment discount terms.

To address the issues identified in the report, we recommended that the FAS
Commissioner:

   1. Remind all MAS contractors of their contractual responsibility to include
      applicable prompt payment discount terms on invoices;
   2. Seek recoveries, when economical, advisable, and feasible from MAS
      contractors who fail to cite contractual prompt payment discount terms on
      invoices;
   3. Take corrective actions to ensure that the ITSS software application is corrected
      to allow entry of accurate contractual prompt payment discount terms for all
      applicable MAS contractors;




A130063                                    3
    4. Take appropriate actions to ensure that GSA Forms 300, prepared manually and
       through the ITSS application, include applicable prompt payment discount terms
       in accordance with the GSA Acquisition Manual;
    5. Take appropriate actions to ensure that Industrial Operations Analysts are aware
       of prompt payment discounts when conducting Contractor Assistance Visits;
    6. Ensure that appropriate corrective actions are taken when Industrial Operations
       Analysts identify MAS contractor invoicing discrepancies during their Contractor
       Assistance Visits; and
    7. Take a formal position as to whether ordering activities can or cannot negotiate
       away prompt payment discount terms.

The FAS Commissioner agreed with Recommendations 1 through 6, and partially
agreed with Recommendation 7. FAS stated it would revisit the relevant Federal
Acquisition Regulation and General Services Administration Acquisition Regulation
(GSAR) clauses to determine if it is necessary to develop a formal policy addressing
MAS customers negotiating away prompt payment discounts at the task order level.
We responded that a formal position on the issue will either encourage more ordering
activities to seek better upfront discounts if management authorizes them to do so, or
discontinue the current practice if it is management’s position that the practice is not
within the ordering activities’ authority.

Results

Our implementation review determined that the following corrective actions have not
been taken:

    •   In response to Recommendation 2, FAS stated that it would work with its
        “business portfolios” and the Office of General Counsel to select a small
        population of MAS contracts where claims can be pursued on a pilot basis (see
        action item 2.2 in Appendix B). FAS, through its Industrial Operations Analysts,
        identified eight MAS contracts where contractors did not include prompt payment
        discounts terms on invoices. FAS has not pursued claims on seven of the eight
        contracts selected. As of April 3, 2013, FAS recovered $689.72 from one
        contractor; its recovery efforts have not been effective or timely.

        On June 11, 2013, FAS provided the results of an MAS contract compliance pilot
        project. 1 For the period April 9, 2013, to April 26, 2013, FAS conducted 487
        contractor visits and reported issues on 159 contracts. FAS identified 52
        contracts with prompt payment discount issues with potential overcharges of
        $1,769,140.

        Despite identifying additional contracts with prompt payment discount problems,
        FAS still does not have a plan to pursue recovery of the identified potential
        prompt payment overcharges. According to FAS, any further action regarding

1
  The pilot project was in response to the GSA OIG’s March 8, 2013, memorandum titled, Major Issues
from Multiple Award Schedule Preaward Audits, Audit Memorandum Number A120050-3.


A130063                                         4
       the potential overcharge of $1,769,140 is under the purview of the procuring
       contracting officer. Therefore, our position remains that FAS has not completely
       satisfied the corrective action plan for Recommendation 2.

   •   In response to Recommendation 7, FAS stated it would submit a business case
       to the Office of Government-wide Policy, Office of Acquisition Policy to develop
       and issue the appropriate policy, if regulatory policy or other policy changes were
       required (see action item 7.3 in Appendix B). On June 3, 2011, FAS submitted
       its business case to the Office of Government-wide Policy, Office of Acquisition
       Policy to justify a deviation from GSAR clause 552.238-8, Discounts for Prompt
       Payment. The purpose of the deviation was to permit ordering activities to
       negotiate away prompt payment discount terms established at the MAS contract
       level in exchange for better pricing in the form of a temporary price reduction at
       the order level. However, as of May 21, 2013, FAS has not received approval for
       the deviation.

       On June 12, 2013, FAS provided notification it had not been successful in
       obtaining the requested deviation to the GSAR. FAS has since determined “the
       appropriate policy approach would be through the FAR rulemaking process, not
       deviating from the GSAR.” Specifically, FAS is “recommending a change to the
       FAR to ensure policy consistency and transparency in addressing recurring
       systemic infractions.” FAS estimates this process would take about 635 days
       from start to finish. Therefore, our position remains that FAS has not completely
       satisfied the corrective action plan for Recommendation 7.

Management Comments

FAS developed new corrective actions for the previously-approved action items 2.2 and
7.3, which it believes will make FAS fully responsive to Report Number
A090026/Q/7/P10001. Management’s written comments to this report are attached in
their entirety as Appendix C.

Action Required

The Commissioner, Federal Acquisition Service (Q), is required to submit a revised
action plan to the Government Accountability Office/Inspector General Audit Response
Division (H1C) within 30 days showing the new corrective actions planned.




A130063                                     5
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001




A130063                    A-1
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001 (cont.)




A130063                    A-2
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001 (cont.)




A130063                    A-3
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001 (cont.)




A130063                    A-4
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001 (cont.)




A130063                    A-5
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001 (cont.)




A130063                    A-6
Appendix A – Action Plan for Report Number
A090026/Q/7/P10001 (cont.)




A130063                    A-7
Appendix B – A090026/Q/7/P10001 Corrective Action Matrix
 Action                                                                                  Not
  Item                            Corrective Action                             Taken   Taken
1.1.      Write and issue a reminder to all Industrial Operations Analysts
          that they should be discussing MAS contractors' contractual
                                                                                 X
          responsibility to include prompt payment discount terms on
          invoices when they conduct Contractor Assistance Visits.
1.2.      Write an article for the GSA Steps newsletter that reminds all
          MAS vendors of their contractual responsibility to include             X
          applicable prompt payment discount terms on invoices
2.1.      Work with the Office of General Counsel to develop issue
          guidance in the form of an Instructional Letter or Procurement
                                                                                 X
          Information Notice on define when "economical, advisable, and
          feasible" to seek recoveries.
2.2.      Working with the Office of General Counsel and business
          portfolios to select a small population of MAS contracts where                 X
          claims can be pursued on a pilot basis.
3.1.      Implement system changes to the Information Technology
          Solution Shop software application that will allow users to
                                                                                 X
          correctly input accurate contractual prompt payment discount
          terms for all applicable MAS vendors.
4.1.      Write and issue a Procurement Information Notice that ensures
          that acquisition personnel include applicable prompt payment
          discount terms in accordance with the General Services                 X
          Administration Acquisition Manual when manually preparing GSA
          Forms 300.
5.1.      Write and issue revised guidance on prompt payment discount in
                                                                                 X
          the Contractor Assistance Visit Desk Guide.
6.1.      Write and issue guidance in the form of an Instruction Letter or
          Procurement Information Notice on what corrective actions
          contracting officers may take when MAS vendor invoicing                X
          discrepancies are reported by the Industrial Operations Analysts
          via Contractor Assistance Visit reports or by any other means.
7.1.      Write and issue a Procurement Information Notice providing
          guidance on negotiating prompt payment discounts at the                X
          contract level.
7.2.      In conjunction with the Office of General Counsel develop a
          white paper that examines when Federal Acquisition Regulation
          and GSAR changes are necessary and develops a formal                   X
          position as to whether ordering activities can or cannot negotiate
          away prompt payment discounts.
7.3.      If regulatory policy or other policy changes are required, submit a
          business case to the Office of Government-wide Policy, Office of               X
          Acquisition Policy, to develop and issue the appropriate policy.
          Total                                                                   9       2




A130063                                      B-1
Appendix C – Management Comments




A130063                 C-1
Appendix D – Report Distribution

Commissioner, Federal Acquisition Service (Q)

Assistant Commissioner, Office of Acquisition Management (QV)

Inspector General, Office of Inspector General (J)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Acquisition Programs Audits (JA)

Division Director, GAO/IG Audit Response Division (H1C)

Assistant Inspector General for Investigations (JI)




A130063                                    D-1
